sar covers.qxd   5/24/12   1:07 PM   Page 1
sar covers.qxd   5/24/12   1:07 PM   Page 2
This page intentionally left blank.
                               SEMIANNUAL
                              REPORT TO CONGRESS




Table of Contents
Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Key Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Implementation of the American Recovery and
Reinvestment Act of 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Other Significant Audits, Inspections, and Reviews . . . . . . . . . . . . . . . 11

Investigative Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

Positive Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
          Highlights Based on Office of Inspector General Work . . . . . . . . . . . . . . .24
          Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
          Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
          Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
          Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
          Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Appendix 1 – Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
          Recovery Act and Recovery Act-Related Reports Issued . . . . . . . . . . . . . . . 28
          Other Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
          Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

Appendix 2 - Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
          Audit Reports with Recommendations for Better Use of Funds . . . . . . . . . 33
          Audit and Inspection Reports with Questioned Costs . . . . . . . . . . . . . . . . . 34
          Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
          Prior Significant Recommendations Not Implemented . . . . . . . . . . . . . . . . 35
          Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
          Summary of Investigative Activities – Hotline Activity . . . . . . . . . . . . . . . . 37
          Summary of Recovery Act Section 1553 Retaliation Complaints . . . . . . . . 37
          Peer Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38




                                                 OCTOBER 1, 2011 – MARCH 31, 2012                                  1
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




Message from the Inspector General



                                    O
                                                n behalf of the Department of Energy’s Office of
                                                Inspector General, I am pleased to submit our
                                                Semiannual Report to Congress for the period
                                     ending March 31, 2012. This report highlights significant
                                     accomplishments of the Inspector General’s Office relative
                                     to our efforts, while working with management, to ensure
                                     the efficiency and effectiveness of Department of
                                     Energy operations.

                                      During this reporting period, we continued to focus on our
                                      monitoring and oversight responsibilities related to
                                      expenditures of Recovery Act funds. Our charge was to
concentrate on ensuring proper and appropriate expenditures, and reducing the potential for fraud,
waste, or abuse. A total of 11 Recovery Act-related reports were issued and are summarized in this
document. During this period, the Office of Inspector General also issued
numerous reports addressing other vital Department missions and
functions. This included our annual “Management Challenges” report
which identified risks inherent in the Department’s wide ranging and
complex operations. As part of the Management Challenge process for
2012, we provided the Department’s management with five major
proposals for consideration as steps to enhance economy and efficiency.

This has been an eventful six month period requiring a great deal of hard
work on the part of the Inspector General staff. I applaud their service on
behalf of U.S. taxpayers.




                                                  Gregory H. Friedman
                                                  Inspector General




 2     OFFICE OF INSPECTOR GENERAL
                              SEMIANNUAL
                              REPORT TO CONGRESS




      Key Accomplishments
      For the Period of October 1, 2011 – March 31, 2012


Total Reports Issued:                                                           39
      Recovery Act Reports                                                      11
      Audit Reports                                                             24
      Inspection Reports (includes non-public reports)                           4

Funds Put to Better Use                                              $ 10.3 million

Questioned Costs                                                     $ 0.5 million

Dollars Recovered (Fines, Settlements, and Recoveries)               $ 5.8 million

Criminal Convictions                                                             9

Suspensions and Debarments                                                      23

Potential Recoveries from Open False
Claims Act Investigations                                            $ 94.5 million

Civil and Administrative Actions                                                45

Hotline Complaints and Inquiries
     Received                                                                3,118
     Processed Immediately/Redirected/No further Action                      2,813
     Processed for Further Review and Adjudicated                              305

Recovery Act Whistleblower Retaliation Complaints Received                       4




                                            OCTOBER 1, 2011 – MARCH 31, 2012     3
                                             SEMIANNUAL
                                             REPORT TO CONGRESS



                     Implementation of the American
                     Recovery and Reinvestment
                     Act of 2009
 Reports

Lessons Learned/Best Practices during the Department of Energy’s
(Department) Implementation of the Recovery Act

As of December 31, 2011, the Department had obligated $34.6 billion (98 percent) of the Recovery Act
funding, but had spent just over $21 billion. The goal of rapidly deploying funds of this magnitude and
ensuring that the funds were expended efficiently and effectively, created a number of challenges for the
Department. For instance, resources were strained and new programs were established on an expedited
basis.

Based on a body of work over nearly 3 years, including more than 70 completed Recovery Act reviews, the
OIG observed that there were a number of lessons learned and insights as to best practices that could help
improve ongoing and future operations in the Department. Examples include:
   ■   Risk Management Practices – Effective management of risk depends on a rigorous system of controls
       such as the use of performance metrics and trend analysis to help ensure that programs are meeting
       intended objectives;
   ■   Financial Management and Accounting and Reporting – The use of spending plans and performance
       baselines are essential to appropriately manage and account for changes to financial resources;
   ■   Human Capital Management – Continuous evaluation of staffing and employee skill sets help ensure
       that the skill sets are commensurate with the demands of work being performed;
   ■   Regulatory Compliance – Anticipating and planning for the impact of regulatory requirements on
       operations can help the Department and its grant and contract recipients achieve the desired level of
       program performance; and,
   ■   Delivery of Public Services – Clear communications with the public is essential to avoid gaps
       between recipient expectations of services rendered by grantees on behalf of the Department and
       those actually available.

The Department concurred with the report and commented that it had made significant progress in
addressing the findings and recommendations of OIG reports through implementation and completion of
corrective actions. The Department also indicated that it will continue to implement strong business
practices to facilitate timely, accurate and complete reporting of both Recovery Act and program activities.
(OAS-RA-12-03)



 4      OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




Saratoga County Economic Opportunity Council, Inc. -
Weatherization Assistance Program Funds Provided by the
Recovery Act

The Department awarded a Recovery Act Weatherization Program grant of $394 million to the State of
New York. New York allocated about $6.9 million of the grant to Saratoga County Economic Opportunity
Council, Inc. (SARA) to weatherize 982 homes.

The examination found that documentation supporting the evaluation of subcontractors was not available
from SARA, and purchases made did not comply with New York's and SARA's policies and procedures.
Also, a lack of adequate segregation of duties existed in Weatherization Program administration and
adequate records were not maintained by SARA to support quarterly reports, as required by the
Weatherization Program. In addition, a cash advance received by SARA for the Weatherization Program
was not properly recorded in the accounting system and cash advances were not deposited in an interest
bearing account, as required. Finally, vehicle and equipment usage, maintenance and repair records were
not maintained by SARA. The Department concurred with the report recommendation, and provided
planned actions to address issues identified. (OAS-RA-12-05)


The Department’s Recovery Act – Arizona State Energy Program (SEP)

The Department allocated $55.4 million in SEP funds under the Recovery Act to the State of Arizona,
which allocated $25.2 million in grants for energy savings and renewable energy projects in schools. The
remaining $30.2 million was to fund other energy savings and renewable energy projects, such as retrofits
for public buildings and non-profit organizations, and renewable energy products manufactured in Arizona.
As specified by the Department in its grant agreement and program guidance, SEP funding was to be
obligated by September 30, 2010, and spent by April 30, 2012. Arizona met the obligation deadline and
reported that, as of December 2011, it had spent $38.2 million (69 percent) of its SEP Recovery Act funds.

We found that Arizona had developed a number of processes and controls to accomplish the objectives of
the SEP and the Recovery Act. For example, Arizona established a plan to select projects that would save
energy and increase renewable energy sources; leveraged Recovery Act funds to increase economic stimulus
and reduce project risk; and, tracked the number of jobs created by projects. However, we identified several
concerns that could impact Arizona's success in accomplishing SEP and Recovery Act objectives.
Specifically, we noted that Arizona had not always ensured timely commencement of project work at
schools. In addition, it had not always ensured applicable Recovery Act provisions were included in sub-
recipient agreements, and that historic preservation office approvals were obtained prior to spending Federal
funds to alter structures or sites. Actions are ongoing by Arizona to mitigate the impact of the concerns on
SEP and Recovery Act objectives. Therefore, we made several suggestions to the Department and Arizona
relating to the concerns. (OAS-RA-L-12-03)


             Public reports are available in full text on our website at www.ig.energy.gov



                                                          OCTOBER 1, 2011 – MARCH 31, 2012               5
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




The State of Nevada’s Implementation of the Energy Efficiency and
Conservation Block Grant (EECBG) Program

The EECBG Program provides grants to U.S. local governments, states, territories and Indian tribes to
fund projects that reduce energy use and fossil fuel emissions and improve energy efficiency. The
Department awarded the Nevada State Office of Energy (Nevada) approximately $9.6 million to develop
and implement the EECBG Program, of which about $8.8 million was awarded to 23 state and local
government entities or sub-recipients. Nevada retained approximately $800,000 for administrative and
monitoring costs. Grant recipients are responsible for ensuring sub-recipients comply with requirements
and achieve goals.

We identified monitoring and oversight issues that increase the risk Recovery Act goals may not be met.
Specifically, Nevada had not ensured that sub-recipient projects were on track to meet the January 2012
completion date. In addition, it had not ensured compliance with the Davis-Bacon Act and Buy American
provisions of the Recovery Act, as well as terms and conditions of its grant awards. The issues occurred
because Nevada had not taken a comprehensive approach to grants management. Specifically, we noted
that Nevada did not have the tools necessary to manage sub-recipient progress. We made a number of
recommendations designed to improve Nevada’s monitoring of its EECBG Program. The Department
concurred with the recommendations and indicated it would work with Nevada to ensure the report
recommendations were implemented. (OAS-RA-12-02)


The Department’s Management of the Smart Grid
Investment Grant Program

The Recovery Act provided the Department's Office of Electricity Delivery and Energy Reliability with $3.5
billion to fund the Smart Grid Investment Grant (SGIG) Program and to assist in modernizing the Nation's
power grid. The SGIG Program was established to facilitate the installation of state-of-the-art information
technologies and, ultimately, improve grid reliability and enable consumers to reduce the amount of energy
used. The program required that the portion of a recipient's project paid for with Federal funds not exceed
50 percent of the total project cost. Reliability of the grid, specifically ensuring that it is adequately
protected from malicious cyber attacks, has been and continues to be an area of concern.

Our audit revealed several opportunities to enhance management of the SGIG Program. In particular, we
found that Department officials approved Smart Grid projects that used Federally-sourced funds to meet
cost-share requirements. One grantee inappropriately used $1.8 million in Federal funds to meet grant
cost-share obligations. In addition, three of the five cyber security plans (required to be submitted by
grantees) reviewed were incomplete, and did not always sufficiently describe security controls and how the
controls were implemented. The issues found were due, in part, to the accelerated planning, development,
and deployment approach adopted by the Department for the SGIG Program. In particular, the
Department had not always ensured that certain elements of the SGIG Program were adequately
monitored. The Department generally concurred with the recommendations and indicated that it will take
corrective action. (OAS-RA-12-04)


 6     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




Alleged Misuse of Recovery Act Grant Funds by the Western
Arizona Council of Governments (WACOG)
The OIG received a complaint alleging a pattern of wasteful spending of Recovery Act Weatherization
Program funds and mismanagement of the Weatherization Program at the WACOG. The State of Arizona
awarded WACOG approximately $5.9 million of the Department’s Recovery Act grant funds to weatherize
homes in the western Arizona counties of Yuma, Mohave and La Paz.

We were unable to substantiate the allegations that WACOG engaged in a pattern of wasteful spending or
that it mismanaged the Weatherization Program. However, we observed several issues related to
procurement of goods and services and the accuracy of Recovery Act reporting that should be addressed.
For instance, we observed that WACOG expended approximately $133,000 for building improvements,
office furnishings, software upgrades and a telephone system without obtaining required approvals from
Arizona. Also, WACOG's purchase records did not always contain documentation showing evidence that a
cost or price analysis was performed to determine if the best value was obtained. In addition, neither
WACOG nor Arizona accurately reported completed housing units. Further, WACOG had not always
provided Arizona with accurate information regarding work performed on completed weatherized houses.
The weaknesses identified occurred, in part, because of a lack of understanding and execution of Federal
grant requirements, Department Weatherization Program policy and Arizona Weatherization Program
requirements. Management agreed with our recommendations and provided corrective actions that will be
taken to address the recommendations. (INS-RA-12-01)


Western Area Power Administration’s (WAPA) Control and
Administration of the Recovery Act Borrowing Authority
Under the Recovery Act, WAPA was granted $3.25 billion in borrowing authority to help build transmission
infrastructure. To meet the Recovery Act's goals of promoting job creation and economic recovery, WAPA's
Transmission Infrastructure Program first used its borrowing authority to execute a financing agreement with
Montana Alberta Tie Ltd. and MATL LLP (MATL) in October 2009, to construct a "shovel-ready" 214-
mile transmission line intended to provide interconnection for proposed wind power generation farms in
Montana. WAPA financed $161 million of the original $213 million transmission project's estimated cost.

We found that WAPA had not implemented the necessary safeguards to ensure its commitment of funding
was optimally protected. Specifically, WAPA had not initially required MATL to establish an earned value
management system to provide timely, integrated cost and schedule information and a risk-based
management reserve to fund unanticipated cost overruns. WAPA has significant financial exposure on the
project, having permitted MATL to expend $152 million of WAPA's committed funding of $161 million
on a project encountering significant delays and cost overruns. In addition to these project management
issues, we also noted an impending gap in funding available to operate the Program. WAPA is currently
working on financing projects which dwarf MATL. We provided recommendations to help assist WAPA
ensure that it provides adequate oversight, limits taxpayer risk and exposure, and successfully meets the
intent of its Recovery Act borrowing authority. The Department concurred with the recommendations and
indicated that plans are being executed to address the issues identified. (OAS-RA-12-01)


                                                          OCTOBER 1, 2011 – MARCH 31, 2012               7
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




The Management of Post-Recovery Act Workforce Transition at
Office of Environmental Management (EM) Sites

Under the Recovery Act, $6 billion was received by the Department to promote economic recovery through
job creation and retention, while accelerating environmental cleanup activities across EM sites. As Recovery
Act projects are completed, sites are reducing the workforce to levels needed to perform remaining base
work. The Department estimates that, with the end of Recovery Act funding and other known budget
reductions, as many as 4,450 Recovery Act and base program workers at EM sites will be displaced. At the
time of our review, more than 3,600 workers at EM sites had been displaced. As required by statute and
Department regulation, displaced workers subject to involuntary separation must be given notice or
payment in lieu of notice.

At 2 major EM managed sites, we found that the transition approach adopted at Savannah River has resulted
in unnecessary payments of nearly $7.7 million to separated contractor employees. Specifically, Savannah
River, even though not required by statute or Departmental Order, elected to provide separating employees
with 60 days of pay rather than giving them the required advance termination notices. While in sharp
contrast, transitioning employees at Hanford were to be provided with advance notice of termination and, as
a result, were to continue performing their assigned tasks during the notice period. The Savannah River
approach, if adopted elsewhere or if considered precedent-setting, could materially impact upcoming
restructuring efforts at other Department facilities. Inconsistencies in treatment occurred because the sites
did not receive formal guidance from Headquarters on implementation. The Department concurred with
recommendations and indicated that it would initiate action to address the issues identified. (OAS-RA-12-06)


Special Inquiry on the Office of the Chief Financial Officer’s
Information Technology Expenditures

A complaint was received through the OIG Hotline alleging the waste of appropriated Fiscal Year (FY)
2010 and Recovery Act funds by senior officials within the Office of the Chief Financial Officer (OCFO).
In particular, the complainant stated that the Office of Program Analysis and Evaluation (PA&E) had
mismanaged over $6 million worth of software contracts and related user licenses. PA&E, within the
OCFO, provides independent analysis and advice to the Secretary regarding planning, execution,
measurement and evaluation of the Department's programs and activities.

We did not identify material issues or obtain sufficient evidence to support the allegations concerning
PA&E's management of software contracts and licenses. However, we did find that the software in
question was costly and, that in some cases, it was not as useful or productive as expected. For instance,
expenditures for the Multi-Attribute Decision Model totaled approximately $785,000 in software and
contractor support costs. However, PA&E officials were unable to provide Federal employee salaries and
benefit costs attributable to the project. Also, the Performance Manager Module was initially a more


             Public reports are available in full text on our website at www.ig.energy.gov



 8     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




complex application, and users indicated that supplementary steps were required to input data, creating a
more cumbersome process. Further, areas were identified where the Department could improve its efforts
to plan for and acquire software. For instance, the Department continued to maintain two types of
document storage applications and had not performed an analysis to determine potential areas of
duplication or opportunities for consolidation. We suggested that the Chief Financial Officer, in
conjunction with other Department officials, examine the use of document storage applications, and ensure
that requirements and needs are fully analyzed prior to software acquisition, as appropriate. The
Department concurred with the suggestions. (OAS-RA-L-12-01)


Recovery Act Funded Projects at the Lawrence Berkeley National
Laboratory (Berkeley)

The Department’s Office of Science (Science) received $1.6 billion through the Recovery Act, which it used
to invest in various projects. Berkeley received approximately $333.4 million in Recovery Act funds,
primarily from the Department through Science, for infrastructure upgrades and a broad array of research
efforts. These funds were allocated to 130 projects related to infrastructure, energy, science, computing and
health.

The five Berkeley Recovery Act funded projects we reviewed were on schedule and within budget. In
addition, we noted that Berkeley's project managers generally employed project management practices
required by the Department. We also found that Berkeley was generally in compliance with selected
Recovery Act requirements, including the segregation of funds. However, one instance was identified where
Berkeley's actions did not comply with Recovery Act requirements to ensure that subcontractor invoices
were always clearly identified as Recovery Act funded work. Specifically, based on our review of 71
invoices, we identified 48 that did not clearly delineate the work was Recovery Act funded. Yet, the
subcontractor costs were appropriately segregated for the items tested, in part, because the invoices were
linked to purchase orders that were specific and clearly designated as funded by the Recovery Act.
Therefore, it appeared that Berkeley reduced the potential for comingling of Recovery Act and non-
Recovery Act funding, as required by Department regulations. As a result, no recommendations were made
to Department management. (OAS-RA-L-12-02)




             Public reports are available in full text on our website at www.ig.energy.gov



                                                          OCTOBER 1, 2011 – MARCH 31, 2012               9
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Waste Disposal and Recovery Act Efforts at the
Oak Ridge Reservation

The Department's Oak Ridge Office (ORO) is responsible for processing and disposing of the Transuranic
waste on the Oak Ridge Reservation (ORR), including approximately 3,500 cubic meters of legacy remote-
handled and contact-handled Transuranic waste from more than 50 years of energy research and weapons
production. ORR was selected to receive $755 million in Recovery Act funds, of which $143.5 million was
allocated for the Transuranic Waste Processing Center (TWPC). The Department selected the TWPC
project for Recovery Act funding because it was deemed to be "shovel-ready" and was set for immediate
implementation.

Our inspection did not identify significant issues with the use of Recovery Act funds. However, we noted
that the TWPC project encountered a number of obstacles in processing and disposing of ORR's
Transuranic waste. Because of technical problems, including significant ground water infiltration in
remote-handled waste storage casks, the TWPC project was behind schedule and at risk of not achieving its
accelerated waste disposal goals. In response, Department officials initiated a number of program changes
designed to ensure that new, realistic Transuranic waste processing goals are developed and achieved. We
believe that ORO's planned actions, if successfully implemented, should help mitigate the schedule issues
identified. However, we suggested that management closely monitor implementation of planned actions.
(INS-RA-L-12-01)



 Whistleblower Retaliation

Section 1553 of the Recovery Act extends whistleblower protection to employees who believe they are, or
have been, retaliated against for reporting misuse of Recovery Act funds received by their non-Federal
employers. Specifically, an employee of any non-Federal employer, such as a private company or a state or
local agency, who reports information that the employee reasonably believes is evidence of waste, fraud or
abuse connected to the use of Recovery Act funds, may not be discharged, demoted or otherwise
discriminated against because of his or her disclosure. Unless the Inspector General determines that the
complaint is frivolous, does not relate to covered funds, or another Federal or State judicial or
administrative proceeding has previously been invoked to resolve such complaint, the Inspector General
shall investigate the complaint and issue a report of findings within 180 days.

The activity of the office is summarized in the chart on page 37.




             Public reports are available in full text on our website at www.ig.energy.gov


 10    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




                        Other Significant Audits,
                        Inspections, and Reviews
Management Challenges                                     ■   Extending the reach of the Quadrennial
                                                              Technology Review concept by applying it
The OIG identifies annually what it considers the             to the Department's entire science and
most significant management challenges facing the             technology portfolio;
Department. This effort identified risks inherent         ■   Eliminating duplicative NNSA functions;
in the Department’s wide ranging and complex
operations, as well as those related to problems          ■   Establishing a "Base Realignment and
with specific management processes. Thus, the                 Closure" style commission to analyze the
FY 2012 management challenges are:                            Department's laboratory and technology
                                                              complex;
   ■   Operational Efficiency and Cost Savings
                                                          ■   Reprioritizing the Department's
   ■   Contract and Financial Assistance                      environmental remediation efforts; and,
       Award Management
                                                          ■   Re-evaluating the current structure of the
   ■   Cyber Security                                         Department’s physical security apparatus.
   ■   Energy Supply                                          (DOE/IG-0858)

   ■   Environmental Cleanup
   ■   Human Capital Management                        The Department’s Unclassified
                                                       Cyber Security Program - 2011
   ■   Nuclear Waste Disposal
   ■   Stockpile Stewardship                           The Federal Information Security Management
                                                       Act of 2002 (FISMA) established requirements for
In addition, we designated a “watch list,”             all Federal agencies to develop and implement
consisting of issues that do not currently meet our    agency-wide information security programs.
threshold of being classified as management            FISMA also directed Federal agencies to provide
challenges, but warrant continued attention by         appropriate levels of security for the information
Department officials. For FY 2012, the “watch          and systems that support the operations and assets
list” issues are Infrastructure Modernization;         of the agency, including those managed by another
Safeguards and Security; Loan Guarantee Program;       agency or contractors. As required by FISMA, an
and, Worker and Community Safety.                      independent evaluation was conducted to
                                                       determine whether the Department’s unclassified
Also, we developed a series of operational             cyber security program adequately protected its
efficiency and cost reduction ideas for                data and information systems.
consideration by Department management with
the intent to highlight possible ways in which the     The Department had taken steps over the past year
Department can reduce the overall cost of              to address previously identified cyber security
operations and become more efficient. The ideas        weaknesses and enhance its unclassified cyber
for consideration were:                                security program. However, additional action was



                                                        OCTOBER 1, 2011 – MARCH 31, 2012             11
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




needed to further strengthen the unclassified cyber     Commission's unclassified cyber security program
security program and help address threats to            to determine whether it adequately protected data
information and systems. For example, the               and information systems
evaluation disclosed that corrective actions had
been completed for only 11 of the 35 cyber              The Commission had taken actions to improve its
security weaknesses identified in our FY 2010           cyber security posture and mitigate risks associated
review. In addition, numerous weaknesses were           with certain issues identified during our FY 2010
identified in the areas of access controls,             evaluation. However, this evaluation disclosed that
vulnerability management, web application               additional action is needed to further protect
integrity, contingency planning, change control         information systems and data. In particular, we
management, and cyber security training. The            continued to identify weaknesses related to the
weaknesses occurred, in part, because                   Commission's timely remediation of software
Departmental elements had not ensured that cyber        vulnerabilities. Specifically, our testing found that
security requirements included all necessary            additional opportunities existed for the
elements and were properly implemented. Also,           Commission to ensure that all servers and
program elements did not always utilize effective       workstations were patched in a timely manner.
performance monitoring activities to ensure that        The problems were due, in part, to less than fully
appropriate security controls were in place. We         effective implementation of cyber security policies
made several recommendations to help the                and procedures. As such, we recommended that
Department strengthen its unclassified cyber            the Commission ensure that existing vulnerability
security program for protecting its systems and         management procedures are fully implemented.
data from the threat of compromise, loss or             Commission management concurred with the
modification. Management concurred with the             recommendation and indicated that corrective
recommendations and indicated that it had               actions had been initiated. (OAS-M-12-01)
initiated or already completed actions to address
issues identified. (DOE/IG-0856)
                                                        The Department’s Configuration
                                                        Management of Non-Financial
The Federal Energy Regulatory
                                                        Systems
Commission’s Unclassified Cyber
Security Program - 2011                                 The Department utilizes many types of IT systems
                                                        to support its various missions related to
The Federal Energy Regulatory Commission relies         environmental cleanup, national security, energy
on a wide range of information technology (IT)          and scientific research. Protecting these systems
resources in achieving its mission of assisting         has become increasingly challenging as the
consumers in obtaining reliable, efficient and          frequency and sophistication of cyber attacks
sustainable energy services. To help protect against    continues to rise. A key component of helping to
cyber security threats such as these, the               ensure an adequate information security posture is
Commission estimated that it would expend               the implementation of an effective configuration
approximately $3.8 million during FY 2011 to            management program. Configuration
secure its IT assets. As directed by FISMA, an          management helps to protect the confidentiality,
independent evaluation was conducted of the             integrity and availability of IT resources through
             Public reports are available in full text on our website at www.ig.energy.gov


 12    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




controls over the processes for initializing,          Department's FY 2011 budget request and a
changing and monitoring information systems.           $317 million reduction from the Department's
                                                       FY 2010 enacted budget, reductions of about
We found that the Department had not                   5 percent of the base amount. Given the current
implemented sufficient controls over its               budget uncertainties and increasingly scarce
configuration management processes for non-            funding resources, we wanted to determine
financial systems. The issues we identified were       whether EM was effectively managing and
similar to what we observed with financial systems     planning for declining budget allocations.
in our most recent evaluation report on The
Department's Unclassified Cyber Security Program -     We found that EM had implemented a risk-based
2011 (DOE/IG-0856, October 2011). Security             process to manage and plan for declining budget
patches designed to mitigate system vulnerabilities    allocations that incorporates the myriad factors
had not been applied in a timely manner for            that must be considered. Also, EM's budget
desktops, applications and servers. In addition,       formulation and allocation process was based on
organizations and sites reviewed had not always        site needs and requirements. Although EM's
followed effective procedures to ensure that           current annual budget planning process appeared
changes to systems and applications were properly      to be adequate to address the nearly five percent
tested and approved prior to implementation. The       decline in budget allocations that we tested, more
weaknesses occurred because procedures were not        extensive reductions could put future regulatory
adequate for identifying and remediating               and agreement milestones at risk. To address such
vulnerabilities in a timely manner. In addition,       shortfalls, we suggested in our report on
change control weaknesses occurred because             Management Challenges at the Department of
procedures were not always adequate for                Energy - Fiscal Year 2012 (DOE/IG-0858,
addressing approval, testing or evaluation for         November 2011) that the Department may need
security risk prior to implementation.                 to revise its current environmental remediation
Management concurred with our recommendation           strategy and instead address environmental
and indicated that corrective action will be taken     concerns on a national, complex-wide risk-driven
to address the issues identified. (OAS-M-12-02)        basis. As a result, no recommendations or further
                                                       suggestions were made to the Department in this
                                                       report. (OAS-L-12-03)
The Department’s Office of
Environmental Management
                                                       The Department’s
Budget Allocation Plan
                                                       Implementation of
EM is tasked with managing the technically             Homeland Security
challenging risks posed by the world's largest         Presidential Directive 12
nuclear cleanup effort. EM received
approximately $6 billion in traditional base           Homeland Security Presidential Directive 12
appropriations for FY 2010, and requested              (HSPD-12), “Policies for a Common Identification
approximately $6 billion for FY 2011. However,         Standard for Federal Employees and Contractors”,
under the Continuing Resolution for FY 2011,           was established in August 2004 to enhance
EM was appropriated $5.7 billion, representing         national security and mandate the use of a Federal
approximately $358 million in cuts from the            government-wide standard for secure and reliable



                                                        OCTOBER 1, 2011 – MARCH 31, 2012           13
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




forms of identification for Federal employees and       Non-Facility Contractor Prior
contractors. The Department initiated its HSPD-
                                                        Performance
12 efforts in 2004 and has spent more than
$15 million, most of which was dedicated to
                                                        The Department obligated approximately
issuance and maintenance of badges. However,
                                                        $89 billion during FYs 2009 and 2010, through
recent Office of Management and Budget
                                                        various contracts and financial assistance awards,
guidance directed that Federal agencies should
                                                        including contracts funded by the Recovery Act.
have physical and logical access controls fully
                                                        Holding contractors accountable for past
installed and that policy be issued by each agency
                                                        performance is an important tool for making sure
to ensure all new systems under development be
                                                        the Federal government receives good value from
enabled to use HSPD-12 credentials.
                                                        its contracts. Thus, contracting officials are
                                                        required to consider the prospective awardees past
We found that, despite 7 years of effort and
                                                        performance, to determine whether an offeror is
expenditures of more than $15 million, the
                                                        responsible. Also, agencies are required to submit
Department had yet to meet all HSPD-12
                                                        an evaluation of contractor performance for each
requirements. In particular, the Department had
                                                        contract that exceeds the simplified acquisition
not fully implemented physical and logical access
                                                        threshold.
controls in accordance with HSPD-12.
Furthermore, the Department had not issued
                                                        The Department had not always considered prior
HSPD-12 credentials to many uncleared
                                                        contractor performance nor completed contractor
contractor personnel at its field sites. We noted
                                                        performance assessments in a timely manner. In
what we considered to be a lack of a coordinated
                                                        particular, we found at 3 sites that the Department
approach among programs and sites related to
                                                        could not demonstrate that it had: (1) evaluated
implementation of HSPD-12 requirements. In
                                                        contractor prior performance before making
particular, we found that guidance provided by
                                                        104 of the 519 (20 percent) contracts and
management was fragmented and often inadequate
                                                        financial assistance awards; (2) reviewed the
to meet the goals of the initiative. Until physical
                                                        Government-wide Excluded Parties List System to
and logical access controls are fully implemented
                                                        ensure that offerors and applicants were not
in accordance with HSPD-12, the Department
                                                        debarred from doing business with the Federal
will continue to pay significant maintenance costs
                                                        government for 42 of 519 (8 percent) of our
for credentials without realizing the full benefits.
                                                        sample items; or, (3) completed post award
Management concurred with the report's
                                                        contractor performance evaluations within the
recommendations and indicated that it had
                                                        required 120 calendar days after the evaluation
initiated corrective action to address issues
                                                        period for 323 of the 881 (37 percent) contracts
identified in our report. (DOE/IG-0860)
                                                        requiring such an evaluation. These actions were
                                                        not always conducted primarily because
                                                        procurement officials and contracting personnel
                                                        did not follow or apply Federal and Departmental
                                                        requirements and procedures. Also Department
                                                        officials revealed that contracting officers’
                                                        representatives did not place sufficient emphasis
                                                        on completing the post award evaluation
             Public reports are available in full text on our website at www.ig.energy.gov


 14    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




requirement. Management generally concurred              the custody of the County. These problems
with our recommendations and indicated that              occurred, in part, because the Department’s Los
corrective action will be taken to address the issues    Alamos Site Office did not ensure that property
identified in the report. (DOE/IG-0857)                  management provisions had been effectively
                                                         implemented. Also, we noted that Los Alamos
                                                         Site Office did not require the Fire Department to
Property Accountability and                              strengthen protective measures, and NNSA had
                                                         not ensured that all requisite provisions for cyber
Protection of Federal Sensitive
                                                         security were incorporated into the Cooperative
Unclassified Information Under                           Agreement. Management generally agreed with
the Cooperative Agreement                                our recommendations and indicated that corrective
with the Incorporated County                             action will be taken. (DOE/IG-0859)
of Los Alamos

The OIG received a complaint alleging that               Follow-up Review of Security at
Federal government property, including                   the Strategic Petroleum Reserve
computers, was missing from the Los Alamos
County Fire Department (Fire Department).                The Department is required to ensure adequate
During our initial evaluation of the complaint,          security is provided to safeguard the Strategic
we also became aware that Sensitive Unclassified         Petroleum Reserve (SPR), one of our Nation's
Information provided to the Fire Department by           critical infrastructures. SPR has the largest
Los Alamos National Laboratory (Los Alamos)              stockpile of Government-owned emergency crude
may not have been adequately protected. The              oil in the world and exists foremost as an
National Nuclear Security Administration (NNSA)          emergency response tool the President can use
entered into a Cooperative Agreement with the            should the U.S. be confronted with an
County of Los Alamos. Under the Cooperative              economically-threatening disruption in oil
Agreement, the Fire Department was to provide an         supplies. In June 2005, we issued a report on
enhanced level of services to support Los Alamos.        Review of Security at the Strategic Petroleum Reserve,
The Cooperative Agreement also contains                  (DOE/IG-0693). At that time, Department
provisions for the management of Federally-owned         management concurred with the report’s
personal property provided to the Fire Department        recommendations.
by NNSA.
                                                         In our follow-up inspection, we determined that
We substantiated the allegation that property,           SPR officials had generally taken corrective actions
including computers, was missing. Despite                to improve SPR's security processes. In particular,
Department requirements, effective processes and         we confirmed that corrective actions had generally
procedures were not in place to ensure the proper        been taken to improve SPR's processes regarding
control and accountability of Federally-owned            the insider threat, deadly force authorities and
personal property in possession of the Fire              protective force performance test realism; and a
Department. For instance, the Fire Department            comprehensive security review had been
had not reported lost or stolen items to Los             performed. However, a concern was revealed
Alamos, and had not maintained an up-to-date             regarding Security Police Officers' understanding
listing of all Federally-owned personal property in      of situations in which the use of deadly force was



                                                          OCTOBER 1, 2011 – MARCH 31, 2012               15
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




permitted at three of the four SPR sites visited.       general support systems. However, our current
Specifically, 9 of 36 Security Police Officers          review identified new concerns in the areas of
interviewed mistakenly believed that they should        cyber security, project management and
use deadly force to protect SPR infrastructure,         procurement of IT resources. The issues identified
contrary to the Federal regulation which limits the     were due, at least in part, to inadequate
use of deadly force to the protection of personnel      implementation of policies and procedures related
from imminent death or serious bodily harm. The         to security and project management. Management
weakness identified occurred, in part, because          concurred with the report's recommendations and
Department management had not concentrated its          indicated that corrective action would be taken.
attention on ensuring that responsible facilities       (DOE/IG-0861)
contractors appropriately applied the Department's
deadly force policy. Management concurred with
our recommendation and indicated that corrective        Purchase of Computers for the
action had been taken. (INS-O-12-01)
                                                        U.S. Department of Agriculture
                                                        Forest Service at the Savannah
Management of Bonneville                                River Site
Power Administration's                                  Savannah River Operations Office entered into an
(Bonneville) IT Program                                 Interagency Agreement with the U.S. Department
                                                        of Agriculture Forest Service (Forest Service) to
Bonneville makes extensive use of various               conduct a natural resource stewardship program at
information systems in its daily operations,            Savannah River Site. The OIG received a
including electricity transmission systems, systems     complaint that the Forest Service had purchased a
that enable the marketing and transferring of           number of computers that were not placed into
electrical power, as well as administrative and         use and the computers were stored in a manner
financial systems. Should any of these information      that left them vulnerable to theft or misuse.
systems be compromised or otherwise rendered
inoperable, the impact on Bonneville's customers        We substantiated the allegation that out of the
could be significant. Prior reviews have identified     17 computers purchased, 16 had not been placed
weaknesses related to Bonneville's IT program.          into use and that the computers were not stored in
For instance, our report on Cyber Security Risk         a secure location, making them vulnerable to theft
Management Practices at the Bonneville Power            or diversion. Furthermore, we determined that,
Administration (DOE/IG-0807, December 2008)             contrary to property management guidelines, none
identified risk management weaknesses related to        of the computers had been recorded in a property
Bonneville's Federal requirement to certify and         accountability system. Management agreed with
accredit its information systems for operation.         our recommendations regarding the need for an
                                                        effective protocol for coordination of computers
Our audit found that Bonneville had taken steps         and network connectivity issues, and for
to address the cyber security concerns raised in our    appropriately safeguarding computers. However,
prior review. For instance, officials had performed     management still needs to further address planned
detailed assessments of security controls on various    corrective actions relating to appropriately

             Public reports are available in full text on our website at www.ig.energy.gov


 16    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




safeguarding computers, and to consider whether        material contract invoices for any unallowable
increasing accountability over this sensitive          costs and noted instances where costs were
equipment is beneficial and could help reduce the      disallowed when noncompliant with the negotiated
risk of loss/theft. (OAS-M-12-03)                      rates. As a result, no recommendations were made
                                                       to management in the report. (OAS-L-12-01)

NNSA Global Threat Reduction
Initiative’s Contract                                  Follow-up Inspection on
Administration                                         Security Clearance Terminations
                                                       and Badge Retrieval at the
NNSA’s Office of Defense Nuclear
                                                       Lawrence Livermore National
Nonproliferation established the Global Threat
Reduction Initiative (GTRI) in May 2004 as a vital     Laboratory (Livermore)
part of the efforts to combat nuclear and
radiological terrorism. GTRI's mission is to reduce    Livermore is managed and operated under contract
and protect vulnerable nuclear and radiological        by Lawrence Livermore National Security, LLC, for
material located at civilian sites worldwide.          NNSA. The Livermore Site Office is the NNSA
Although much of the GTRI mission and scope is         Federal entity responsible for administering the
performed by the Department’s national                 contract. Livermore is contractually obligated to
laboratories, NNSA also executes a portion of its      follow the Department’s security policies when
GTRI mission directly through small business and       individuals terminate employment. These policies
foreign contracts. As of January 2011, the GTRI        include: (1) collecting and locally deactivating
program had 20 active small business and foreign       security badges; (2) providing security briefings and
contracts totaling $272 million.                       ensuring a Security Termination Statement is signed;
                                                       and, (3) sending requests for security clearance
Overall, we found that NNSA established a system       terminations to NNSA Personnel Security Division.
of controls to manage its GTRI contracts. In
particular, GTRI personnel verified contract           In January 2006, we issued a report on Security
deliverables, employed multiple monitoring             Clearance Terminations and Badge Retrieval at
techniques, and reviewed contract costs. For           Lawrence Livermore National Laboratory, (DOE/IG-
example, GTRI representatives stated that they         0716). The follow-up inspection revealed that
conducted site visits approximately every 6 weeks      Livermore and NNSA have generally taken
for one of the large foreign contracts we reviewed.    corrective actions with regard to recovery of security
We also concluded that NNSA had a process in           badges, conducting security termination briefings
place to review contract costs for allowability,       and timely termination of security clearances. For
allocability and reasonableness. We sampled            instance, Livermore developed and implemented
invoices from the 12 contracts we reviewed and         the Vital Information System Interactive Online
noted that GTRI technical representatives and          Network, improving the employee termination
contract office staff performed joint reviews upon     process to include the retrieval of security badges,
receipt of contractor invoices for firm-fixed-price    the security termination briefing procedures and the
contracts. Also, we verified contract specialist       sending of clearance termination requests through
reviews of cost-reimbursement and time-and-            an encrypted email system to NNSA Personnel

             Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2011 – MARCH 31, 2012              17
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Security Division. Also, NNSA Personnel Security          control issue, we made suggestions to the Idaho
Division improved the timeliness of security              Operations Office relating to capitalizing costs, as
clearance terminations in the Department's Central        appropriate; ensuring proper categorization; and
Personnel Clearance Index. However, we did                documentation retention. (OAS-L-12-02)
identify opportunities for further improvements
regarding Livermore's security termination briefing
procedures and NNSA's full utilization of the             Follow-up Review of Control
encrypted email system. Therefore, we made several
                                                          and Accountability of
suggestions to management for improvement.
(INS-L-12-02)                                             Emergency Communication
                                                          Network Equipment

Idaho Operations Office’s                                 The Department’s Emergency Communication
Radiological and Environmental                            Network (ECN) mission is to enable the exchange
                                                          of classified and unclassified voice, data and video
Sciences Laboratory                                       capabilities during national or Department
                                                          emergencies. NNSA’s Office of Emergency
A complaint was received through the OIG Hotline          Operations manages the ECN program for the
alleging improprieties with the construction and          Department. NNSA contracted with National
operation of the Radiological and Environmental           Security Technologies, LLC (NSTec) for
Sciences Laboratory (RESL). In particular, the            administration, maintenance and operation of
complainant stated that the construction, relocation      ECN at NNSA’s Nevada Site Office and managing
and operation of RESL violated a number of                ECN property of about 1,100 pieces, including
Federal policy and procedural requirements. RESL          computers, laptops, servers and switches.
is a reference measurements laboratory specializing
in analytical chemistry, radiation measurements and       In September 2004, we issued a report on Control
calibrations, and quality assurance.                      and Accountability of Emergency Communication
                                                          Network Equipment, (DOE/IG-0663). Our follow-
We did not identify material issues or obtain             up inspection revealed that the Department had
sufficient evidence to substantiate the allegations       taken positive steps in response to the 2004 report
concerning RESL's operation and relocation.               to improve ECN property control and
However, we did identify an internal control              accountability. For instance, Department and
weakness that the Department should consider              NSTec officials consolidated ECN equipment
relating to accounting for renovation costs.              inventories for Headquarters and Nevada into a
Specifically, the Department may not have                 centralized property management system. Also,
appropriately capitalized costs associated with the       they developed procedures to improve the process
renovation of the office facility. Project                for increased property accountability. Although
management officials did not provide the data             minor issues were identified, we generally confirmed
needed by accounting personnel to make an                 that the Department had addressed previous
appropriate determination. Rather, the project            findings and was adequately accounting for ECN
manager determined whether costs would be                 property. As a result, no recommendations were
capitalized or expensed. To address the internal          made to management. (INS-L-12-01)

             Public reports are available in full text on our website at www.ig.energy.gov


  18    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                           REPORT TO CONGRESS




                      Investigative Outcomes

                                                      which they were not entitled and two individuals
 Purchase Card Fraud
                                                      were terminated from employment. In addition,
 Investigations                                       five subcontractor employees were debarred from
                                                      doing business with the Federal Government for
The OIG conducted a number of investigations          3 years. To date, over $2.3 million in fines,
involving the improper use of Government              restitution and civil settlement agreements have
purchase cards by contractor employees at the         been paid by contractors and their employees.
Department’s Hanford Site. As previously
reported, several contractor employees were
convicted, sentenced and ordered to pay over            Time Card Fraud Investigations
$1 million in restitution. Additionally,
3 companies previously agreed to pay over
                                                      Three former Department contractor employees at
$6 million in civil settlements. During this
                                                      the Hanford Site pled guilty in U.S. District Court
reporting period, a former contractor employee
                                                      for the Eastern District of Washington to
was sentenced to 46 months incarceration,
                                                      conspiracy to defraud the Government. The
3 years probation and was ordered to pay
                                                      investigation determined that between May 2004
$487,000 in restitution for committing wire
                                                      and October 2008, several contractor employees
fraud. Additionally, a vehicle that was
                                                      routinely falsified timecards and received pay for
refurbished using the embezzled funds was seized
                                                      hours they did not work. The amount received by
by the Government. The former contractor
                                                      each employee ranged from $50,000 to $166,000.
employee was debarred from doing business with
                                                      Sentencing is pending in each case.
the Federal government for 3 years. Also during
this reporting period, 7 former Hanford Site
contractor employees entered into civil
settlement agreements with the Department of          Settlement Agreement in
Justice and agreed to pay $83,637 in restitution      Defective Body Armor
to settle Anti-Kickback Act allegations.              Investigation

                                                      As previously reported, a joint investigation was
 Per Diem Fraud Investigations                        conducted into allegations that a body armor
                                                      manufacturer knowingly participated in the
The OIG conducted a number of investigations          manufacturing and sale of defective body armor
involving the improper payment of per diem by         containing Zylon. The body armor company sold
Savannah River Nuclear Solutions. Many of these       this defective body armor to the Department as
payments involved Recovery Act funds. During          well as to other Federal, State, local and Tribal law
this reporting period, six subcontractor employees    enforcement agencies. Several individual
were convicted for receiving per diem payments to     companies that provided component parts of the

            Public reports are available in full text on our website at www.ig.energy.gov



                                                       OCTOBER 1, 2011 – MARCH 31, 2012              19
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




armor, or the armor itself, previously agreed to pay    Termination Letter Issued in
a total of $59 million to resolve allegations of
                                                        Grant Fraud Investigation
violating the False Claims Act. During this
reporting period, another company, with the
                                                        The Department issued a termination letter to a
approval of U.S. Bankruptcy Court for the District
                                                        recipient of a $1.1 million EECBG, which
of Delaware, agreed to pay $1 million in
                                                        includes Recovery Act funds. The termination
settlement of claims by the U.S. Government.
                                                        letter was issued for serious mismanagement and
This remains an ongoing investigation with the
                                                        misuse of financial assistance award funds. The
Department of Justice Civil Division and several
                                                        Department issued the letter after reviewing grant
other Federal law enforcement agencies.
                                                        recipient documents obtained by the OIG during
                                                        the course of an investigation. The documents
                                                        revealed the recipient failed to follow approved
Funds Returned to the                                   procurement policies and procedures, incurred
Department in Grant Fraud                               unallowable costs and pursued activities beyond
Investigation                                           the approved scope of work.

An EECBG recipient returned $2,491,090 to the
Department. The OIG investigation determined            Former SLAC National
that the recipient failed to produce proper             Accelerator Laboratory
substantiation for the funds despite repeated
                                                        Employee Debarred from
requests from Department program staff. The
investigation also determined the recipient             Government Contracting
intended to use the funds for activities beyond the
approved scope of work. The grant funds were            In response to an Investigative Report to
awarded under the Recovery Act. This is a joint         Management (IRM), the Office of Procurement
investigation with the Federal Bureau of                and Assistance Management debarred a former
Investigation (FBI).                                    SLAC National Accelerator Laboratory (SLAC)
                                                        employee from doing business with the
                                                        Government for a period of 3 years. The former
Actions in Weatherization Fraud                         employee previously pled guilty to one count of
                                                        willful injury and depredation of Government
Investigation                                           property. The investigation determined that the
                                                        former employee intentionally destroyed 5,000
Two senior members of a Community Action                protein crystals utilized for scientific research at
Program in Rhode Island were terminated from            SLAC by removing them from subzero storage.
employment for allegedly attempting to destroy          The estimated loss to the Government was
evidence related to an OIG investigation into the       approximately $500,000. This was a joint
misappropriation of over $2 million in Recovery         investigation with the FBI.
Act weatherization grant funds. A third senior
member was suspended from employment. This is
an ongoing joint investigation between State and
Federal agencies.

             Public reports are available in full text on our website at www.ig.energy.gov


 20    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Civil Settlement Agreement in                          investigation determined that the professor applied
                                                       for and received a $1.9 million research grant from
Fire Investigation
                                                       the Advanced Research Projects Agency – Energy,
                                                       after already receiving a grant from the National
An investigation determined that a fire, caused by
                                                       Science Foundation to perform the same work.
an equipment failure on a dump truck owned by a
                                                       Additionally, the University reimbursed the
subcontractor, burned approximately 13,000 acres
                                                       Department $93,000 and the Department
on the Idaho National Laboratory (INL) site and
                                                       terminated the remainder of the award.
approximately 36 acres of U.S. Bureau of Land
Management (BLM) land. The U.S. Department
of Justice entered into a civil settlement with an
INL subcontractor. The subcontractor agreed to         Former Department Contractor
pay $270,000 to settle allegations that it violated    Employee Pled Guilty to Theft of
fire trespass laws and was negligent in its            Federal Funds
maintenance of vehicles. This is a joint
investigation with BLM.                                A former Bonneville contractor employee pled
                                                       guilty to one count of theft of Federal funds. The
                                                       investigation determined that the individual
Civil Judgment Reached in                              embezzled approximately $36,000 in Department
Workers’ Compensation Fraud                            funds for personal use. Specifically, the former
                                                       employee used a bank debit card to purchase items
Investigation
                                                       such as electronics, gym memberships and
                                                       vacations. The debit card was intended to make
In the U.S. District Court for the Middle District
                                                       purchases for the Bonneville contract the employee
of Tennessee, a Civil Judgment for $125,000 was
                                                       was overseeing.
entered against a family member of a former
Department employee. The investigation
determined that the individual submitted a
fraudulent claim for a $125,000 death benefit          Individuals Pled Guilty in
under the Energy Employees’ Occupational Illness       Copper Theft Investigations
Compensation Program Act after her mother, the
authorized recipient, had died.                        An individual with no Department affiliation pled
                                                       guilty in Morgan County District Court,
                                                       Colorado, for criminal violations related to theft of
Former Professor Pled Guilty in                        copper from the WAPA Hoyt substation. The
                                                       individual was sentenced to 3 years incarceration
Duplicate Research Grant Fraud
                                                       and 2 years of mandatory parole and was ordered
Investigation                                          to pay $14,044 in restitution to the Department.
                                                       This was a joint investigation with the Weld and
A former Pennsylvania State University professor       Morgan County Sheriffs’ Offices and the Denver
pled guilty in U.S. District Court for the Middle      Police Department. In a related investigation,
District of Pennsylvania to wire fraud, false          another individual with no Department affiliation
statements and money laundering. The OIG

             Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2011 – MARCH 31, 2012             21
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




pled guilty to burglary in the theft of copper from     allegations that an IT employee at INL may have
WAPA’s Ault substation and was sentenced in             been involved in downloading and distributing
Weld County Colorado District Court to 3 years          child pornography. Further investigation
incarceration. A determination of restitution is        exonerated the employee and determined that the
pending. This is a joint investigation with the         employee’s roommate was the person responsible
Weld County Sheriff ’s Office.                          for the illegal activity.


Former Contractor Employee                              Former Contractor Employee
Debarred from Government                                Debarred
Contracting
                                                        As a result of an OIG investigation, a former
As a result of an OIG investigation, a former           contractor employee of the Argonne National
contractor employee of Livermore was debarred           Laboratory was debarred from Government
from Government contracting for a period of             contracting for a period of 3 years. As previously
3 years. The investigation determined that the          reported, the investigation determined that
former contractor employee, while employed at           employees at a non-profit organization created a
Livermore, stole high-end printer cartridges and        false billing scheme that diverted funds to multiple
sold them to a supply company and online                individuals for work that was not performed.
wholesalers. The stolen cartridges were valued at       The former employee previously pled guilty to
approximately $12,000. As previously reported,          one count of mail fraud and was sentenced to
the former contractor employee was sentenced to         18 months probation or 150 hours of community
1 day incarceration and 5 years probation. The          service.
individual was also ordered to pay $9,640 in
restitution, court fees and assessments.
                                                        IRM Issued to Oak Ridge Office
                                                        (ORO)
Individual Sentenced for
Possession of Child                                     The OIG issued an IRM regarding tool
                                                        management policies and accountability at the
Pornography
                                                        Department’s East Tennessee Technology Park. In
                                                        response, ORO implemented corrective action to
An individual with no affiliation to the
                                                        improve internal control deficiencies. The
Department who pled guilty to one count of
                                                        investigation determined that former and current
possession of sexually exploitative material of
                                                        prime contractors had not properly maintained
children, was sentenced in U.S. District Court of
                                                        property management and accountability controls
Idaho to 6 years incarceration and 10 years of
                                                        and did not effectively utilize an available
supervised released. The individual will also be
                                                        electronic management system.
required to register as a sex offender. The
investigation was initiated upon receipt of



             Public reports are available in full text on our website at www.ig.energy.gov


 22    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Weatherization Funds Returned                          Three Department Employees
to the Department                                      Disciplined in Response to an
                                                       IRM
As a result of an OIG investigation, a Community
Action Agency (CAA) reimbursed the Maine State         In response to an IRM, the Department
Housing Authority $81,121. The investigation           suspended one employee and reprimanded two
determined that the CAA intentionally                  other employees. The OIG investigation
mismanaged Department Weatherization                   determined that the three Department employees
Assistance Program funds, to include directing         engaged in unprofessional conduct while on
employees to charge hours worked on non-DOE            official overseas Department travel.
programs to the Department. The Maine State
Housing Authority is in the process of returning
the funds to the Department. Both Federal and
State prosecutors declined to prosecute in lieu of
administrative remedies. This investigation did
not involve Recovery Act funds.


Department Employee
Sentenced for Travel Voucher
Fraud

An investigation determined that the director of a
Headquarters’ program office submitted and was
reimbursed for fraudulent travel vouchers in
connection with official Department travel. The
employee was sentenced to 6 months probation in
U.S. District Court for the District of Columbia
for conversion of public money and was also
ordered to pay restitution to the Department, a
fine and a special assessment fee.




            Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2011 – MARCH 31, 2012        23
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




                       Positive Outcomes

Highlights Based on Office of                               ■   The Office of the Chief Information Officer
                                                                (OCIO) issued Department Order 243.1A,
Inspector General Work                                          “Records Management Program.” The
                                                                revised policy covers additional aspects of
During this reporting period, the Department                    records management, particularly
took positive actions as a result of OIG work                   management of electronic records, and
conducted during the current or previous periods.               requires mandatory training for all Federal
Consistent with our findings and                                personnel. In addition, the Department
recommendations:                                                updated, as appropriate, the records
                                                                management guidance currently available
   ■   Science and the Office of Energy Efficiency              on the OCIO records management website.
       and Renewable Energy (EERE) updated
       and began implementing program guidance              ■   A Department contracting officer formally
       to ensure that systems are secure and Plans              determined that $142,665 in costs claimed
       of Action and Milestones are properly used               was unallowable under Federal regulation
       to track corrective actions for known cyber              and the terms and conditions of a
       security weaknesses. Also, Science, EERE                 Cooperative Agreement for Fire
       and NNSA implemented additional                          Department services.
       processes related to oversight of site cyber
       security programs.                                   ■   EERE conducted a comprehensive analysis
   ■   At the National Energy Technology                        relating to the inaccurate reporting of
       Laboratory (NETL), analysis was performed                completed housing units by the State of
       on the site’s data center needs that resulted            Arizona under Department Weatherization
       in the consolidation of computational                    Program guidelines and required Arizona to
       equipment and a plan to convert more than                correct the reporting error in its
       1,400 square feet of recovered space for                 Weatherization Program database.
       other uses. Also, an extensive engineering
       and economic analysis of candidate sites was         ■   NNSA took action necessary to ensure that
       performed that incorporated actual costs                 the management and operating contractor
       and allowed for a consistent assessment of               for a national laboratory was not given an
       costs across the alternatives.                           unfair competitive advantage over other
                                                                contractors, and proprietary data and
   ■   Department programs and sites had taken                  technology was appropriately protected by
       corrective action to address previously                  providing essential laboratory personnel
       identified cyber security weaknesses in the              with Organizational Conflicts of Interest
       areas of access control, configuration and               (OCI) training for identifying and
       vulnerability management, and integrity of               mitigating OCI issues or concerns.
       web applications, resulting in the closure of
       22 findings.



 24     OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                           REPORT TO CONGRESS




■   The Department issued a delegation of             Congressional Responses
    authority requiring specific review and
    approval of certain workforce restructuring       During this reporting period, the OIG provided
    actions by senior management.                     information at the request of Congress in
                                                      44 instances and briefed congressional staff on
■   NNSA’s Office of Secure Transportation and        11 occasions. In addition, the OIG testified at
    the Pantex Site Office conducted an analysis      three congressional hearings before the following:
    of combined needs, determining that a joint
    use facility is required to meet all protective      1) Subcommittee on Regulatory Affairs,
    training needs. Anticipating cost savings of            Stimulus Oversight and Government
    $500,000, the Office of Defense Nuclear                 Spending, House Committee on Oversight
    Security agreed to commit $1.5 million to               and Government Reform, on November 2,
    the new facility.                                       2011. The hearing was entitled, “Use of
                                                            Taxpayer Funds at the Department of
■   A Department contracting officer formally               Energy Aimed at Advancing Obama’s Green
    notified a contractor of the intent to                  Energy Agenda;”
    disallow a $1 million fee payment relating           2) Subcommittee on Investigations and
    to the K Basins Sludge Treatment Project at             Oversight, House Committee on
    the Hanford Site.                                       Committee on Science, Space, and
                                                            Technology, on November 30, 2011. The
■   SPR management provided training to                     hearing was entitled, “Stimulus Oversight:
    ensure that each Security Police Officer                An Update on Accountability, Transparency,
    understands when the use of deadly force is             and Performance;” and,
    justified.
                                                         3) Subcommittee on Investigations and
■   Arizona committed to ensuring that sub-                 Oversight, House Committee on
    recipients of SEP funds incorporate required            Committee on Science, Space, and
    regulatory provisions and Federal financial             Technology, on January 24, 2012.
    assistance rules into all open sub-                     The hearing was entitled, “A Review
    agreements.                                             of the Advanced Research Projects
                                                            Agency – Energy.”
■   Livermore updated policies and procedures
    to re-enforce roles and responsibilities
    associated with the removal or transfer of        Legislative and
    equipment in beryllium areas, ensuring            Regulatory Reviews
    proper labeling, sampling or control of
    access. In addition, Livermore ensured that       The Inspector General Act of 1978, as amended,
    standardized beryllium signs and labels were      requires the OIG to review and comment upon
    used as required. Beryllium is a metal            legislation and regulations relating to Department
    essential for nuclear operations and              programs and to make recommendations
    processes.                                        concerning the impact of such legislation or
                                                      regulations on departmental economy and
                                                      efficiency. The OIG coordinated and reviewed
                                                      35 items during this reporting period.



                                                       OCTOBER 1, 2011 – MARCH 31, 2012            25
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Hotline System                                              ■   The OIG referred to the Department
                                                                allegations relating to the lack of
The OIG operates a Hotline System to facilitate                 qualifications of contractor fire protection
the reporting of allegations involving the programs             engineering staff at the Savannah River Site.
and activities under the auspices of the                        In response to the OIG referral, one
Department. During this reporting period, the                   individual was removed from the list of
Hotline received 3,118 contacts (calls, letters,                qualified fire protection engineers.
e-mails, walk-ins, and Qui Tams); 2,813 of these
were immediately resolved, redirected, or required          ■   In response to an OIG referral, Department
no further action. In addition, 305 complaints                  management at the Hanford facility
were processed for further review and adjudication.             identified inconsistencies between a
The OIG Hotline System can be reached by                        contractor’s data logs and the program
calling 1-800-541-1625 or 1-202-586-4073.                       office’s progress reports for work on the
                                                                Draining Reconstitution Team project.
                                                                Department management determined that
                                                                corporate employees did not receive any
Management Referral System
                                                                personal incentive or explicit benefit based
                                                                on the inconsistencies. However,
The OIG referred 179 complaints to Department
                                                                management implemented procedures to
management and other government agencies during
                                                                prevent future reporting inconsistencies.
the reporting period and specifically requested
Department management to respond concerning
                                                            ■   In response to an OIG referral, the
the actions taken on 64 of these complaints.
                                                                Portsmouth/Paducah Project Office and its
Otherwise, Department management and others
                                                                infrastructure contractor at the Portsmouth
were asked to reply only if wrongdoing or
                                                                Gaseous Diffusion Plant replaced damaged
misconduct was confirmed or indicators of fraud
                                                                or missing signs and erected an additional
involving Department programs, operations or
                                                                31 new signs to alert the public when
personnel were identified in response to an OIG
                                                                driving onto a Federal facility.
referral. The following referrals for which responses
were received during this reporting period are
                                                            ■   The OIG was advised of potential
examples that demonstrate management’s use of
                                                                procurement irregularities relating to the
OIG provided information to stimulate positive
                                                                cancellation of NETL pre-solicitation for
change or to take corrective action.
                                                                exam preparation for the Project
                                                                Management Institute’s Project
    ■   A New Hampshire resident complained to
                                                                Management Profession (PMP) exam.
        the OIG about substandard weatherization
                                                                In response to the OIG referral, the
        work performed by a local CCA and its
                                                                Department conducted a review, which
        contractors. In response to an OIG referral,
                                                                determined that the pre-solicitation was
        EERE worked with State officials to
                                                                cancelled after NETL officials learned that
        conduct a site visit and identify work that
                                                                the Department had a nationwide master
        needed to be performed. The work was
                                                                contract that offered the required PMP
        completed and the matter resolved to the
                                                                exam preparation training.
        resident’s satisfaction.




  26     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




   ■   The OIG was advised that a Florida
       company was improperly using the
       Department of Energy seal in an
       advertisement. In response to the
       OIG referral, Department management
       contacted a company representative and
       instructed the individual that all future
       requests for use of the seal must be
       submitted to the Department.


Qui Tams

Since 1996, the OIG has been instrumental in
working with the Department of Justice in
Qui Tam cases. The OIG is currently working on
16 Qui Tam lawsuits involving alleged fraud
against the Government with potential liability in
the amount of approximately $94,530,000. While
these cases are highly resource intensive, requiring
extensive OIG investigative and audit effort, they
have proven to result in a high return on our
investment.




                                                         OCTOBER 1, 2011 – MARCH 31, 2012   27
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                  Appendix 1 - Reports



           Recovery Act and Recovery Act-Related
                      Reports Issued
                           October 1, 2011 – March 31, 2012

Report                                                              Date                  Questioned
Number                               Title                         Issued     Savings       Costs

OAS-RA-12-01     Western Area Power Administration’s              11-04-11
                 Control and Administration of American
                 Recovery and Reinvestment Act
                 Borrowing Authority

OAS-RA-12-02     The State of Nevada’s Implementation of the      11-09-11
                 Energy Efficiency and Conservation
                 Block Grant Program

OAS-RA-12-03     Lessons Learned/Best Practices during the        01-18-12
                 Department of Energy’s Implementation of
                 the American Recovery and Reinvestment
                 Act of 2009

OAS-RA-12-04     The Department’s Management of the Smart         01-20-12   $2,000,000
                 Grid Investment Grant Program

OAS-RA-12-05     Examination Report “Saratoga County              01-20-12                 $33,104
                 Economic Opportunity Council, Inc. –
                 Weatherization Assistance Program Funds
                 Provided by the American Recovery and
                 Reinvestment Act of 2009”

OAS-RA-12-06     The Management of Post-Recovery Act              02-22-12   $7,700,000
                 Workforce Transition at Office of
                 Environmental Management Sites

OAS-RA-L-12-01   Special Inquiry on the Office of the Chief       11-28-11
                 Financial Officer’s Information Technology
                 Expenditures




28   OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




            Recovery Act and Recovery Act-Related
                       Reports Issued
                            October 1, 2011 – March 31, 2012

Report                                                               Date                Questioned
Number                                Title                         Issued    Savings      Costs

OAS-RA-L-12-02   Recovery Act Funded Projects at the               01-12-12
                 Lawrence Berkeley National Laboratory

OAS-RA-L-12-03   The Department of Energy’s American               01-26-12
                 Recovery and Reinvestment Act –
                 Arizona State Energy Program

INS-RA-12-01     Alleged Misuse of American Recovery and           02-09-12
                 Reinvestment Act Grant Funds by the
                 Western Arizona Council of Governments

INS-RA-L-12-01   Waste Disposal and Recovery Act Efforts           12-16-11
                 at the Oak Ridge Reservation




                         Other Audit Reports Issued
                            October 1, 2011 – March 31, 2012

Report                                                               Date                Questioned
Number                               Title                          Issued    Savings      Costs

IG-0856          The Department’s Unclassified Cyber               10-20-11
                 Security Program – 2011

IG-0857          Non-Facility Contractor Prior Performance         10-28-11

IG-0858          Management Challenges at the Department           11-10-11
                 of Energy

IG-0860          The Department of Energy’s Implementation         02-28-12   $600,000
                 of Homeland Security Presidential Directive 12

IG-0861          Management of Bonneville Power                    03-26-12
                 Administration’s Information Technology
                 Program




                                                           OCTOBER 1, 2011 – MARCH 31, 2012    29
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                      Other Audit Reports Issued
                         October 1, 2011 – March 31, 2012

Report                                                            Date               Questioned
Number                             Title                         Issued    Savings     Costs

OAS-M-12-01    The Federal Energy Regulatory Commission’s       11-15-11
               Unclassified Cyber Security Program – 2011

OAS-M-12-02    The Department’s Configuration Managemen         02-23-12
               of Non-Financial Systems

OAS-M-12-03    Purchase of Computers for the U.S.               03-23-12
               Department of Agriculture Forest Service at
               the Savannah River Site

OAS-L-12-01    The National Nuclear Security Administration     10-25-11
               Global Threat Reduction Initiative’s
               Contract Administration

OAS-L-12-02    Idaho’s Radiological and Environmental           02-21-12
               Sciences Laboratory

OAS-L-12-03    The Department of Energy’s Office of             03-15-12
               Environmental Management’s Budget
               Allocation Plan

OAS-FS-12-01   Federal Energy Regulatory Commission’s           11-15-11
               Fiscal Year 2011 Financial Statement Audit

OAS-FS-12-02   Department of Energy’s Fiscal Year 2011          11-15-11
               Consolidated Financial Statements

OAS-FS-12-03   The Department of Energy’s Nuclear Waste         11-21-11
               Fund’s Fiscal Year 2011 Financial Statements

OAS-FS-12-04   Information Technology Management Letter         12-21-11
               on the Audit of the Department of Energy’s
               Consolidated Balance Sheet for
               Fiscal Year 2011

OAS-FS-12-05   Management Letter on the Audit of the            02-06-12
               Department of Energy’s Consolidated
               Financial Statements for Fiscal Year 2011




30   OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                      Other Audit Reports Issued
                         October 1, 2011 – March 31, 2012

Report                                                           Date               Questioned
Number                            Title                         Issued    Savings     Costs

OAS-FS-12-06   Southwestern Federal Power System’s Fiscal      03-08-12
               Year 2006, 2007, 2008 and 2009
               Financial Statement Audits

OAS-FS-12-07   Performance Audit of the Department of          03-15-12
               Energy’s Improper Payment Reporting in the
               Fiscal Year 2011 Agency Financial Report

OAS-FS-12-08   Department of Energy’s Isotope Development      03-23-12
               and Production for Research and Applications
               Program’s Fiscal Year 2009 Balance Sheet

OAS-V-12-01    Audit Coverage of Cost Allowability for         10-31-11
               Bechtel Marine Propulsion Corporation,
               during February 1, 2009 through
               September 30, 2010, under Department of
               Energy Contract No. DE-NR0000031

OAS-V-12-02    Audit Coverage of Cost Allowability for         11-03-11
               Bechtel Jacobs Company, LLC under
               Department of Energy Contract
               No. DE-AC05-98OR22700 for
               Fiscal Years 2008-2010

OAS-V-12-03    Audit Coverage of Cost Allowability for         01-20-12             $471,807
               Savannah River Nuclear Solutions, LLC
               under Department of Energy Contract
               No. DE-AC09-08SR22470 during
               Fiscal Year 2009

OAS-V-12-04    Audit Coverage of Cost Allowability for         02-28-12                 $303
               Lawrence Berkeley National Laboratory for
               the period October 1, 2008 thru
               September 30, 2010 under Department of
               Energy Contract No. DE-AC02-05CH11231

OAS-SR-12-01   Supplemental Special Inquiry on Office of       10-12-11
               Special Counsel Whistleblower Disclosure
               File No. DI-10-1231: Allegations Regarding
               Western Area Power Administration’s Desert
               Southwest Region




                                                         OCTOBER 1, 2011 – MARCH 31, 2012   31
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                Other Inspection Reports Issued
                         October 1, 2011 – March 31, 2012

Report                                                           Date               Questioned
Number                            Title                         Issued    Savings     Costs

IG-0859       Property Accountability and Protection of        02-17-12              $143,000
              Federal Sensitive Unclassified Information
              Under the Cooperative Agreement with the
              Incorporated County of Los Alamos

INS-O-12-01   Follow-up Review of Security at the              10-25-11
              Strategic Petroleum Reserve

INS-L-12-01   Follow-up Review of Control and                  12-21-11
              Accountability of Emergency Communications
              Network (ECN) Equipment

INS-L-12-02   Follow-up Inspection on Security Clearance       03-06-12
              Terminations and Badge Retrieval at the
              Lawrence Livermore National Laboratory




32    OFFICE OF INSPECTOR GENERAL
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




                                Appendix 2 - Tables

                   Audit and Inspection Reports with
                Recommendations for Better Use of Funds
                                         October 1, 2011 – March 31, 2012
                                               (Dollars in Thousands)

             The following table shows the total number of reports and the total dollar value of the
                       recommendations that funds be put to better use by management:

                                                                Total              One Time              Recurring                Total
                                                               Number               Savings               Savings                Savings

  A. Those issued before the reporting period                        3          $602,997,657                  $0             $602,997,657
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                      30            $10,300,000                 $0               $10,300,000

             Subtotals (A + B)                                      33          $613,297,657                  $0             $613,297,657

  C. Those for which a management decision
     was made during the reporting period: *                        21            $12,300,000                 $0               $12,300,000

        (i) Agreed to by management:                                                $2,000,000                $0                 $2,000,000

        (ii) Not agreed by management:                                                  $0                    $0                       $0

  D. Those for which a management decision                          10                  $0                    $0                       $0
     is not required:

  E. Those for which no management decision                          3          $611,297,657                  $0             $611,297,657
     has been made at the end of the
     reporting period: *

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.

*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting
determination by the Contracting Officer.




                                                                                OCTOBER 1, 2011 – MARCH 31, 2012                            33
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




 Audit and Inspection Reports with Questioned Costs
                                         October 1, 2011 – March 31, 2012
                                               (Dollars in Thousands)
                 The following table shows the total number of reports and the total dollar value
                                       of questioned and unsupported costs.

                                                                         Total                Questioned                      Unsupported
                                                                        Number                  Costs                            Costs

  A. Those issued before the reporting period for                            0               $215,259,065                        $441,697
     which no management decision has
     been made:*

  B. Those issued during the reporting period:                               3                     $472,110                        $33,104

       Subtotals (A + B)                                                     3               $215,731,175                        $474,801

  C. Those for which a management decision was                               3               $128,488,553                        $106,104
     made during the reporting period:*

       (i) Value of disallowed costs:                                                           $2,773,851**                       $73,000

       (ii) Value of costs not disallowed:                                                   $125,385,592                            $0

  D. Those for which a management decision is                                0                      $0                               $0
     not required:

  E. Those for which no management decision                                  0                $87,714,732                        $401,801
     has been made at the end of the
     reporting period:*

  Definition of Terms Used in the Table
  Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged
  violation of law, regulation, contract, etc.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the
  audit and inspection report and the issuance of a final decision by management concerning its response.

*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting determination by
the Contracting Officer.
**Included disallowed costs from DOE/OIG-0859; Costs claimed were unallowable pursuant to 2 CFR Part 225, 10 CFR 600 and the terms and con-
ditions of a Cooperative Agreement for Fire Department services due to a lack of support demonstrating that these costs were allowable, allocable and/or
reasonable.




  34      OFFICE OF INSPECTOR GENERAL
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Reports Lacking                                                  The finalization of the management
                                                                 decision is pending coordination with the
Management Decision
                                                                 newly established office; a final management
                                                                 decision is expected by April 30, 2012.
DOE’s Departmental Audit Report Tracking
System (DARTS) tracks audit and inspection
reports and management decisions. Its purpose is
to ensure that recommendations and corrective             Prior Significant
actions indicated by audit agencies and agreed to         Recommendations Not
by management are addressed as efficiently and            Implemented
expeditiously as possible. Listed below are the
audit reports over 6 months old that were issued          As of March 31, 2012, closure actions on
before the beginning of the reporting period and          recommendations in 40 OIG reports had not
for which no management decision had been made            been fully implemented within 12 months
by the end of the reporting period. The reason a          from the date of report issuance. The OIG is
management decision had not been made and the             committed to working with management to
estimated date for achieving management decision          expeditiously address the management decision
is described below.                                       and corrective action process, recognizing that
                                                          certain initiatives will require long-term, sustained,
   Management Audit                                       and concerted efforts. The Department has closed
                                                          155 recommendations in the past 6 months.
   ■   IG-0831: The Office of Science’s                   Management updates the DARTS on a quarterly
       Management of Information Technology               basis, most recently in March 31, 2012.
       Resources, November 20, 2009 - The                 Information on the status of any report
       finalization of the management decision is         recommendation can be obtained through the
       dependent upon resolution of complex cost          OIG’s Office of Audits and Inspections.
       allocation issues and coordination with
       senior Departmental leadership. A revised
       management decision has been prepared
       and is in the concurrence process within the
       Department. Anticipated completion date
       of a final Management Decision is
       June 30, 2012.


   ■   IG-0835: The Department of Energy’s
       Opportunity for Energy Savings Through
       Improved Management of Facility
       Lighting, July 1, 2010 – The Department
       of Energy, in support of the Department's
       implementation of Executive Order 13514,
       "Federal Leadership in Environmental,
       Energy, and Economic Performance",
       established a Strategic Sustainability Office.



                                                           OCTOBER 1, 2011 – MARCH 31, 2012              35
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                         Summary of Investigative Activities
                                         October 1, 2011 – March 31, 2012
  Cases open as of October 1, 2011                                                                                                     254

  Cases opened during period                                                                                                            70

  Cases closed during period                                                                                                            72

  Multi-Agency Task Force Cases Opened                                                                                                  23

  Qui Tam investigations opened                                                                                                          3

          Total Open Qui Tam investigations as of March 31, 2012                                                                        16

  Cases currently open as of March 31, 2012                                                                                            252

  IMPACT OF INVESTIGATIONS:

          Administrative discipline and other management actions                                                                        26

          Recommendations to management for positive change and other actions                                                           27

          Suspensions/Debarments                                                                                                        23

          Accepted for prosecution*                                                                                                     18

          Indictments                                                                                                                   21

          Criminal convictions                                                                                                           9

          Pre-trial diversions                                                                                                           3

          Civil actions                                                                                                                 19

  TOTAL DOLLAR IMPACT**
  (Fines, settlements, recoveries)                                                                                                  $5,846,408

* Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
** Some of the money collected was the result of task force investigations involving multiple agencies.




  36      OFFICE OF INSPECTOR GENERAL
                                                SEMIANNUAL
                                                REPORT TO CONGRESS




                  Summary of Investigative Activities
                                             HOTLINE ACTIVITY
                               October 1, 2011 – March 31, 2012
Total Hotline calls, emails, letters, and other complaints (contacts)                       3,118

       • Hotline contacts resolved immediately/redirected/no further action                 2,813

       • Hotline contacts predicated for evaluation                                          305

       • Hotline predications pending disposition                                             72

Total Hotline predications processed this reporting period                                    364

       • Hotline predications transferred to OIG Program Office                               31

       • Hotline predications referred to Department management or other entity for
         information/action                                                                  179

       • Hotline predications closed based upon preliminary OIG activity and review          145

       • Hotline predications awaiting referral (March 31, 2012)                                  9

Hotline predications open at the end of the reporting period                                      13



                   Summary of
 Recovery Act Section 1553 Retaliation Complaints
                               October 1, 2011 – March 31, 2012

Recovery Act Whistleblower Retaliation Complaints received                                    4

Complaints carried over from prior period(s)                                                  5

Disposition of Whistleblower Retaliation Complaints:

       • Reports issued                                                                       1

       • Complaints Dismissed:

             - Discontinued review                                                            1

             - Complaints withdrawn                                                           2

             - Complainant lacked standing                                                    1

             - Complainant’s contact information invalid/unable to contact complainant        1

Recovery Act Complaints that received extensions                                              3




                                                               OCTOBER 1, 2011 – MARCH 31, 2012    37
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




                                                        Peer Reviews
                                        October 1, 2011 – March 31, 2012
                           Results of Reviews Conducted by DOE/OIG:
                                                  Office of Audits and Inspections
   Date of Recent
  Peer Review(s)                              Reviewed OIG                                  Outstanding Recommendations

           N/A



                           Results of Reviews Conducted by DOE/OIG:
                                                         Office of Investigations
   Date of Recent
  Peer Review(s)                              Reviewed OIG                                  Outstanding Recommendations

           N/A
There are no outstanding recommendations from any previous peer reviews.



                         Results of Reviews Conducted by Other OIGs:
                                                       Office of Audits Services
   Date of                                                  Requirements
  Recent Peer                  Reviewing                     For Review                               Outstanding
  Review(s)                       OIG                        Frequency                            Recommendations/Link

       N/A



                         Results of Reviews Conducted by Other OIGs:
                                                         Office of Investigations
   Date of                                                  Requirements
  Recent Peer                  Reviewing                     For Review                               Outstanding
  Review(s)                       OIG                        Frequency                            Recommendations/Link

       N/A
No Peer Reviews were in progress or completed by other OIGs during this reporting period.




  38      OFFICE OF INSPECTOR GENERAL
                                      SEMIANNUAL
                                      REPORT TO CONGRESS




Feedback Sheet
The contents of the March 2011 Semiannual Report to Congress comply with the requirements
of the Inspector General Act of 1978, as amended. If you have any suggestions for making
the report more responsive, please complete this feedback sheet and return it to:

      United States Department of Energy
      Office of Inspector General (IG-10)
      1000 Independence Avenue, SW
      Washington, D.C. 20585

      ATTN: Linda Snider




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:




For media inquiries, please dial (202) 253-2162 for assistance.



                                                  OCTOBER 1, 2011 – MARCH 31, 2012   39
This page intentionally left blank.
  U.S. Department of Energy
           Office of Inspector General

    Call the HOTLINE if you suspect:
■ Fraud,
■ Waste,
■ Abuse,
■ Mismanagement by a DOE Employee, Contractor, or Grant
  Recipient; or have a
■ Whistleblower Retaliation Complaint related to American
  Reinvestment and Recovery Act funds



                   Call
     1-800-541-1625 or (202) 586-4073

  Additional information on the OIG and reports can be found at
                     http://energy.gov/ig




                 U.S. Department of Energy
                 1000 Independence Avenue, S. W.
                     Washington, DC 20585
sar covers.qxd   5/24/12   1:07 PM   Page 2
sar covers.qxd   5/24/12   1:07 PM   Page 1
